<html>
<title> - REQUESTING THE PRESIDENT AND DIRECTING THE SECRETARY OF STATE TO TRANSMIT TO THE HOUSE ALL INFORMATION RELATING TO COMMUNICATION WITH THE U.K. BETWEEN 1/1/02 AND 10/16/02 RELATING TO THE POLICY OF THE U.S. WITH RESPECT TO IRAQ; REQUESTING THE PRESIDENT AND DIRECTING THE SECRETARY OF DEFENSE TO TRANSMIT TO THE HOUSE ALL DOCUMENTS RELATING TO COMMUNICATIONS WITH THE U.K. RELATING TO THE POLICY OF THE U.S. WITH RESPECT TO IRAQ; AND DIRECTING THE SECRETARY OF STATE TO TRANSMIT TO THE HOUSE DOCUMENTS RELATING TO THE DISCLOSURE OF THE IDENTITY AND EMPLOYMENT OF MS. VALERIE PLAME</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
             REQUESTING THE PRESIDENT AND DIRECTING THE SECRETARY 
             OF STATE TO TRANSMIT TO THE HOUSE ALL INFORMATION 
             RELATING TO COMMUNICATION WITH THE U.K. BETWEEN 
             1/1/02 AND 10/16/02 RELATING TO THE POLICY OF THE 
             U.S. WITH RESPECT TO IRAQ; REQUESTING THE PRESIDENT AND 
             DIRECTING THE SECRETARY OF DEFENSE TO TRANSMIT TO THE 
             HOUSE ALL DOCUMENTS RELATING TO COMMUNICATIONS WITH THE 
             U.K. RELATING TO THE POLICY OF THE U.S. WITH RESPECT TO 
             IRAQ; AND DIRECTING THE SECRETARY OF STATE TO TRANSMIT TO 
             THE HOUSE DOCUMENTS RELATING TO THE DISCLOSURE OF THE 
                   IDENTITY AND EMPLOYMENT OF MS. VALERIE PLAME 
=======================================================================



                                  MARKUP 

                                BEFORE THE 

                                COMMITTEE ON 
                            INTERNATIONAL RELATIONS 
                            HOUSE OF REPRESENTATIVES 

                            ONE HUNDRED NINTH CONGRESS 

                                  FIRST SESSION 

                                      ON 

                     H. Res. 375, H. Res. 408 and H. Res 419 

                                   --------

                               SEPTEMBER 14, 2005 

                                   --------
                   
                              Serial No. 109-114 

    Printed for the use of the Committee on International Relations 

                       Available via the World Wide Web: 
                  http://www.hollse.gov/international_relations 

                        U.S. GOVERNMENT PRINTING OFFICE 
23-436PDF                      WASHINGTON : 2006 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                         Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]


</pre></body></html>
